                                AUDIT REPORT                                                     IG-03-024




Report Recipients:
H/Assistant Administrator for
 Procurement                         IMPROVING NASA OVERSIGHT OF
ARC/D/Director, Ames
 Research Center                         PRIME CONTRACTORS’
GSFC/100/Director, Goddard          NONCOMPETITIVE SUBCONTRACTING
 Space Flight Center
MSFC/DA01/Director,
 Marshall Space Flight Center                               August 15, 2003




cc:
JM/Director, Management
  Assessment Division             WARNING: This document is a final report of audit issued by the NASA Office
ARC/MS200-9/Audit                 of Inspector General (OIG). Contractor information contained herein may be
  Liaison Representative          company confidential. The restriction of 18 USC 1905 should be considered
GSFC/MS201/Audit                  before this data is released to the public. Any Freedom of information Act
  Liaison Representative          request for this report should be directed to the NASA Inspector General for
MSFC/RS40/Audit Liaison           processing in accordance with Title 14 Code of Federal Regulations, Part
  Representative                  1206.504.




                                        OFFICE OF INSPECTOR GENERAL
                                Released by: Original Signed by DAIGA, A. Lamoreaux for
 National Aeronautics and
 Space Administration
                                David M. Cushing, Assistant Inspector General for Auditing
IG-03-024                                                             August 15, 2003
 A-02-011-00

             Improving NASA Oversight of Prime Contractors’
                     Noncompetitive Subcontracting

We evaluated the adequacy of competition in subcontracting by three NASA prime
contractors -- Orbital Sciences Corporation (Orbital); Computer Sciences Corporation
(CSC); and TRW, Inc. We also considered NASA oversight of the contractors’
performance. We found that noncompetitive subcontract awards at TRW, Inc. were
adequately justified and limited our detailed analysis to Orbital and CSC. Competition in
contracting is one of the overarching principles in Federal procurement because it is a
means for keeping suppliers efficient and responsive.

We found that Orbital and CSC had awarded 10 (48 percent) of 21 noncompetitive
subcontracts without adequately justifying the lack of competition. As a result, NASA
had reduced assurance that Orbital and CSC obtained fair and reasonable pricing for the
10 noncompetitive subcontracts, which were valued at $5.5 million. Further, based on
our audits at 13 NASA prime contractors (including those in this audit), we found that 60
(54 percent) of 111 noncompetitive subcontracts reviewed, valued at $11.6 million, were
not justified in accordance with the contract and Federal procurement requirements.
Details of our audit objectives, scope, and methodology are in Appendix B.

Noncompetitive Subcontract Awards Lacked Adequate Justifications

Orbital and CSC had not complied with the Federal Acquisition Regulation (FAR)
requirements for justifying noncompetitive subcontracts in their NASA contracts or with
company policies on competition in subcontracting that implemented the contractual
requirements (see Appendix D for competition requirements).

   •   Four (40 percent) of the 10 noncompetitive subcontract awards lacked any
       documentation to support the company’s claim that the lack of competition was
       justified. Orbital awarded the four subcontracts under two separate NASA
       contracts involving the Marshall Space Flight Center (Marshall) and Ames
       Research Center (Ames).

   •   Justifications for the remaining six subcontract awards did not contain adequate
       explanations to support the companies’ claims that the noncompetitive awards
       were necessary. For example, three subcontracts named specific individuals to
       perform engineering support work, but the justifications lacked required
       explanations about how the individuals were uniquely qualified to perform the




                                            1
        work or that the anticipated costs were fair and reasonable. Orbital and CSC
        awarded the six subcontracts under two separate NASA contracts awarded by
        Marshall.

NASA Oversight Can Be Improved

NASA contracting officer (CO) oversight did not identify the contractors’ inadequate
justifications for noncompetitive subcontracting. COs can require contractors to obtain
the COs’ consent prior to subcontracting. Such consent was required for the CSC
contract at Marshall and the Orbital contract at Ames. The CO for the Orbital contract at
Marshall did not require prior consent before subcontracting.

NASA relies on the Defense Contract Management Agency (DCMA) to review
contractors’ controls over their purchasing process. The DCMA conducts contractor
purchasing system reviews (CPSRs) periodically based on a risk assessment of a
contractor’s controls.

At the time of our audit, the most recent DCMA CPSRs at Orbital and CSC occurred
February 1997 and September 2001, respectively. The DCMA had not included a
detailed evaluation of noncompetitive subcontracting in either review. After our
discussions with the DCMA, it initiated a CPSR of Orbital and included an evaluation of
Orbital’s subcontract awards. The DCMA found noncompetitive awards with inadequate
justifications and, in some cases, no justifications. Further, the DCMA found that for 6
(50 percent) of 12 sampled noncompetitive subcontracts, a price analysis either had not
been accomplished (3) or was inadequate (3).

We found that CO analyses performed in response to Orbital and CSC requests for
consent to subcontract were inadequate. The contract files, for example, did not show
that the COs evaluated whether the individuals were technically qualified, a lack of
competition was properly justified, or the contractor performed adequate price analyses
or comparisons for the required work. The FAR states that COs should be particularly
careful and thorough in their analysis when subcontracts are proposed for award on a
noncompetitive basis. Further, for two of the six subcontracts with inadequate
justifications, the NASA COs’ actions directly contributed to the noncompetitive awards.

   •   On a $736,700 subcontract, a Marshall CO, citing program requirements, directed
       CSC to purchase services from a specific vendor. The CO did not obtain approval
       from the Center Procurement Officer and Competition Advocate as required by
       the NASA FAR Supplement.

   •   On a $3.1 million subcontract, a Marshall CO gave CSC such short notice (about
       3 weeks) of a new contract requirement that CSC had no choice but to select the
       existing subcontractor noncompetitively. The CO told us that the NASA program
       office did not give the CO adequate notice of the requirements to allow for the




                                            2
       subcontract to be competed. The justification did not discuss the extent and
       nature of the harm to the Government if the procurement was competed and did
       not include an analysis of costs.

Recommendations, Management’s Response, and Evaluation of Management’s
Response

1. The Assistant Administrator for Procurement should request that the DCMA
include a detailed analysis of noncompetitive subcontracting when performing
CPSRs at NASA prime contractors.

Management’s Response. Concur. DCMA will be requested to include a detailed
analysis of noncompetitive subcontracting when performing CPSRs at NASA prime
contractors via letter. The letter will be issued by October 31, 2003.

The Director, Marshall Space Flight Center, should:

       2. Direct the Center Procurement Officer to ensure that COs require
          Orbital and CSC to comply with FAR requirements in their NASA
          contracts.

Management’s Response. Concur. The Procurement Officer, via letter, will advise the
COs to require Orbital and CSC to comply with FAR requirements in their NASA
contracts. The letter will be issued by October 31, 2003.

       3. Direct the Center Procurement Officer to ensure that COs properly
          perform adequate analyses of contractor requests prior to approving
          consents to subcontract. Where appropriate, the analyses should include
          obtaining concurrences and approvals from the Center Procurement
          Officer and Competition Advocate, respectively.

Management’s Response. Concur. The Procurement Officer, via letter, will advise the
COs to properly perform adequate analyses of contractor requests prior to approving
consents to subcontract. Where appropriate, the analyses should include obtaining proper
concurrences and approvals from the center Procurement Officer and competition
advocate, respectively. The letter will be issued by October 31, 2003.

       4. Direct the Center program offices to inform all of their program
          managers of the need to make the applicable COs aware at the earliest
          opportunity of any upcoming procurement requirements.

Management’s Response. Concur. The Center program offices/program managers
currently provide the COs with their annual Acquisition Forecast Requirements.
However, the Center Director or his designee will issue correspondence to program
offices advising of the need to make Contracting Officers aware of upcoming



                                           3
requirements that are not in the forecast. The correspondence will be issued by October
31, 2003.

5. The Director, Ames Research Center, should direct the Center Procurement
Officer to ensure that COs require Orbital to comply with FAR requirements in its
NASA contract and to perform adequate analyses of contractor requests for consent
prior to consenting to subcontract.

Management’s Response. Concur. The Procurement Officer will advise the COs to
require Orbital to comply with FAR requirements in its NASA contracts and to perform
adequate analyses of contractor requests for consent prior to consenting to subcontract.
The advisory will be issued by October 31, 2003.

Evaluation of Management’s Response. Management’s planned actions are responsive
to the intent of the recommendations. The recommendations are resolved but will remain
undispositioned and open for reporting purposes until the corrective actions are
completed.

Appendices

Details related to the disposition and closure of the recommendations are in Appendix A.
Among the other appendices, note Appendix C, which identifies and discusses the
specific noncompetitive subcontracts at Orbital and CSC, and Appendices E and F, which
summarize the series of audits that, in total, identify a systemic problem of inadequately
justified noncompetitive procurements by NASA prime contractors.




                                            4
List of Appendices

Appendix A – Status of Recommendations

Appendix B – Objectives, Scope, and Methodology

Appendix C – Noncompetitive Subcontracts With Inadequate
             Justifications

Appendix D – Competition Requirements

Appendix E – Noncompetitive Subcontract Awards at 13 NASA
             Contractors

Appendix F – Summary of Prior Audits

Appendix G – Management’s Response

Appendix H – Report Distribution




Acronyms Used in the Report

CO          Contracting Officer
CPSR        Contractor Purchasing System Review
CSC         Computer Sciences Corporation
DCMA        Defense Contract Management Agency
FAR         Federal Acquisition Regulation




                                      5
                 Appendix A. Status of Recommendations


      Recommendation No.        Resolved   Unresolved   Open/ECD* Closed
             1.                    X                     10/31/03
             2.                    X                     10/31/03
             3.                    X                     10/31/03
             4.                    X                     10/31/03
             5.                    X                     10/31/03

* ECD - Estimated Completion Date




                                       6
             Appendix B. Objectives, Scope, and Methodology

Objectives

The overall objective was to evaluate the adequacy of NASA oversight of selected prime
contractors’ management of subcontracts. Specifically, we determined whether:

   •   contractors’ management of their subcontracts resulted in adequate competition in
       subcontracting and

   •   NASA contracting officer involvement in the subcontract process was adequate.

Scope and Methodology

The initial scope for the audit was to select three contracts from among NASA’s top
contractors. We eliminated from selection those contractors dealing with the
International Space Station and Space Shuttle effort due to other significant audit
coverage of both programs. We selected for review one cost-type contract each at
Computer Sciences Corporation (CSC); Orbital Sciences Corporation (Orbital); and
TRW, Inc.

We selected two additional cost-type contracts, one contract each at CSC and Orbital,
with contract expiration dates in and beyond fiscal year 2003. The selection criteria for
the two additional contracts included the dollar value and time remaining on the contract
award. In total, we reviewed 21 noncompetitive subcontracts valued at $13,453,700.

We examined contractor policies and procedures, subcontract awards, related task orders,
statements of work, justifications for noncompetitive procurements, and file
correspondence. We also reviewed contractor purchasing system reviews (CPSRs)
performed by the Defense Contract Management Agency for CSC and Orbital. In
addition, we discussed procurement practices with contractor representatives and NASA
contracting officers. We also reviewed contract file documentation pertaining to consent
to subcontract requests, contracting officer analyses, and actual consent forms.




                                            7
Appendix B

The four contracts reviewed at CSC and Orbital, contract number, dollar value as of
June 30, 2002, and explanation of the services under each contract follow:

    Computer Sciences Corporation, Federal Sector                  NAS 2-00014     $     33,921,100

    Computer Sciences Corporation, Applied Technology              NAS 8-60000         1,159,796,200

    Orbital Sciences Corporation, Technical Services               NAS 2-97068           29,774,100

    Orbital Sciences Corporation, Launch Systems Group             NAS 8-01102           18,976,000

                                                                        Total      $1,242,467,400

     •   Computer Sciences Corporation, Federal Sector, provides technical research and
         development for the Air Traffic Management Concepts and Automation
         Technologies at Ames Research Center (Ames).

     •   Computer Sciences Corporation, Applied Technology, provides personnel and
         services to support the Program Information Systems Mission Services contract at
         Marshall Space Flight Center (Marshall).

     •   Orbital Sciences Corporation, Technical Services, provides scientific,
         engineering, and technical services for the Earth Science, Space Science, and
         Space Projects Divisions within the Space Directorate at Ames.

     •   Orbital Sciences Corporation, Launch Systems Group, provides the design, build,
         and launch services for the Demonstration of Autonomous Rendezvous
         Technology Flight Demonstration for Marshall.


Use of Computer-Generated Data

We used computer-generated data from the NASA Acquisition Information System on-
line query tool to generate our universe of contracts. We relied on the results of a recent
NASA Office of Inspector General review1 for the testing of the system. Nothing came
to our attention to cause us to question the validity of the specific data elements relied on
in this audit.




1
 The Assistant Inspector General for Inspections and Assessments report, “Review of NASA’s
Procurement Management System On-line Query Tool,” G-02-006, dated February 3, 2003.



                                                       8
                  Administratively Controlled Information—Proprietary
                                  For Official Use Only
Appendix B

Management Controls Reviewed

We reviewed management controls over the award of noncompetitive subcontracts by
CSC and Orbital. We determined that management could improve its controls over such
noncompetitive procurements (see the finding on page 1).

Audit Field Work

We performed audit work from March 2002 through February 2003 at Ames, Goddard
Space Flight Center, and Marshall. We also visited contractor offices at CSC; Orbital;
and TRW, Inc. We performed the audit in accordance with generally accepted
government auditing standards.




                                            9
          Appendix C. Noncompetitive Subcontracts With Inadequate
                             Justifications

 The noncompetitive subcontracts with inadequate justifications are shown below.
 Further discussion of the questioned subcontracts follows the list.

     Subcontact                                                   Subcontract             Justification
      Number                   Subcontractor Name                 Dollar Value         None Inadequate

Orbital Subcontracts (Marshall)

LSG0106-04              Kinetx                                         $172,800                       X
LSG0111-11              Emergent Space Technologies                       3,300                       X
LSG0203-03              Emergent Space Technologies                      17,500                       X
P.O. 129924             Surrey Satellite                                360,000          X
SC03122                 MirandaWorks, Inc.                               38,400          X
SC03143                 MirandaWorks, Inc.                               19,200          X

Orbital Subcontract (Ames) (Note 1)

SC03009                 Rose Engineering                                 167,500         X (Note 2)

CSC Subcontracts (Marshall) (Note 1)

116002                  Madison Research Corporation                    932,500                        X (Note 2)
120429                  Logistics Engineering & Env.                  3,071,700                        X (Note 3)
121196                  Allied Technology Group, Inc.                   736,700                        X (Note 3)
                                                                    __________          ___             ___
                                                          Total      $5,519,600          4                6

Note 1. The prime contracts required contracting officer consent before contractors awarded subcontracts.
Note 2. The contracting officers' analyses were inadequate to support the consent to subcontract.
Note 3. NASA actions directly contributed to the noncompetitive subcontract award.



 Orbital Subcontracts. Orbital’s support was inadequate for 7 of the 17 noncompetitive
 subcontracts reviewed. Orbital did not comply with the Federal Acquisition Regulation
 (FAR) requirements in its NASA contract and company policy to adequately justify
 noncompetitive procurements. The seven subcontracts were for engineering support
 services. Four of the seven subcontracts lacked any justification to support the




                                                     10
                   Administratively Controlled Information—Proprietary
                                   For Official Use Only
                                                                                Appendix C

noncompetitive subcontracts. The remaining three noncompetitive subcontracts named
individuals to perform engineering support work, but the justifications lacked
explanations as to why the individuals were uniquely qualified to perform the work. The
explanations are required by the FAR section in the Orbital contract and by company
policy. In addition, the three subcontracts did not comply with the FAR contract clause
requiring that justifications include a determination that the anticipated costs are fair and
reasonable.

CSC Subcontracts. CSC’s support was inadequate for three of four noncompetitive
subcontracts reviewed. The subcontracts were for computer services and a document
repository. CSC’s justifications for the three subcontracts did not comply with the FAR
contract clause requiring justifications to include a determination that the anticipated
costs are fair and reasonable or with CSC’s own policy for justifying noncompetitive
procurements. Further, the NASA CO approved one subcontract (i.e., 116002) that cited
an unusual and compelling urgency but lacked a supporting rationale on the extent and
nature of the harm to the Government if the subcontract was competed. For the two
remaining subcontracts, the NASA CO’s actions directly contributed to CSC’s
subcontracting on a noncompetitive basis. Details follow:

       •   Allied Technical Group, Inc. (ATG). One subcontract for $736,700
           involved ATG managing the NASA Automated System and Incident
           Response Capability (NASIRC). ATG managed the NASIRC under a
           Goddard Space Flight Center (Goddard) contract that expired on August 31,
           2001. The Goddard procurement office issued solicitation number 630-0001
           on December 20, 2000, to determine whether other parties were interested in
           competing for a follow-on contract. A Goddard contract specialist told us that
           10 companies expressed an interest in bidding on the contract.

           On March 9, 2001, NASA program managers from Goddard and Marshall met
           to transfer the NASIRC effort from the Goddard contract to an existing
           Program Information Systems Mission Services contract at Marshall. On
           June 21, 2001, a Marshall CO directed CSC, the prime contractor on the
           Marshall contract, to subcontract with ATG for the NASIRC effort. CSC’s
           noncompetitive justification referenced ATG as the only vendor with the
           experience to coordinate security incidents NASA-wide. The justification
           lacked a determination that the anticipated cost was fair and reasonable. The
           Marshall CO approved the subcontract consent form, but did not obtain the
           required concurrence or approval by the Center Procurement Officer or




                                             11
                Administratively Controlled Information—Proprietary
                                For Official Use Only
Appendix C

            Competition Advocate, respectively. NASA FAR Supplement 1806.304-702
            required Center Procurement Officer concurrence and Competition Advocate
            approval of the noncompetitive award.

        •   Logistics Engineering & Environmental Support Services (LESCO). One
            subcontract for $3,071,700 involved LESCO managing NASA’s central
            documentation repository. On March 8, 2001, the NASA CO requested from
            CSC a not-to-exceed estimate after the CO was notified by the program office
            responsible for the repository that the operation of the repository needed to be
            transferred to another NASA contract and that the repository needed to be fully
            operational by April 1, 2001. Although the NASA CO did not specify the
            subcontractor to be selected, the short time frame necessitated the selection of
            the incumbent subcontractor, LESCO, in order to meet the new contract
            requirement. The CSC Contracts Manager told us that CSC could not compete
            the subcontract because of the short time between the NASA notice about the
            new requirement and the date the repository had to be fully operational. The
            CSC manager stated the only option was to noncompetitively award the
            subcontract to the company that was already performing the work. The CSC
            noncompetitive justification cited an “unusual and compelling urgency” in
            procuring these services but lacked the supporting rationale on the extent and
            nature of the harm to the Government if the procurement was competed. The
            NASA CO approved the subcontract consent form without further analysis or
            approvals from Center management.




2
  NASA FAR Supplement 1806.304-70 required Center Procurement Officer concurrence and Center or
Headquarters Competition Advocate approval of justifications for noncompetitive procurements of more
than $500,000 when NASA directed a prime contractor to subcontract on a noncompetitive basis.




                                                  12
                 Administratively Controlled Information—Proprietary
                                 For Official Use Only
                    Appendix D. Competition Requirements

The NASA contracting officers (COs) for Computer Sciences Corporation (CSC) and
Orbital Sciences Corporation (Orbital) had incorporated the Federal Acquisition
Regulation (FAR) clauses for competition in subcontracting in all the NASA contracts
and for seeking CO consent before subcontracting into two of the contracts. A summary
of the FAR clauses and requirements follows.

   •   FAR Subpart 6.303-2, “Content.” This section requires justifications for
       noncompetitive procurements to contain sufficient facts and rationale to justify
       not providing full and open competition.

   •   FAR 52.244-5, “Competition in Subcontracting.” This clause requires the
       contractor to select subcontractors on a competitive basis to the maximum
       practical extent consistent with the objectives and requirements of the contract.

   •   FAR 52.244-2, “Subcontracts.” This clause requires the contractor to seek
       consent to subcontract and provide information to the CO reasonably in advance
       of placing any subcontract.

The FAR provides guidance to the COs in reviewing contractors’ requests for consent to
subcontract.

   •   FAR 44.202-2, “Considerations,” paragraph (a), requires the CO responsible for
       consent to, at a minimum, review the request and supporting data and consider 13
       areas including, in part, the following:

       •   is the selection of the particular supplies, equipment, or services technically
           justified?
       •   was adequate price competition obtained or its absence properly justified?
       •   has the contractor performed adequate cost or price analysis or price comparisons
           and obtained accurate, complete, and current cost or pricing data, including any
           required certifications?

       Paragraph (b) states that particularly careful and thorough consideration under
       paragraph (a) above is necessary when…

       •   the prime contractor’s purchasing system or performance is inadequate, and
       •   subcontracts are proposed for award on a noncompetitive basis.

NASA Requirements and Guidance. The NASA FAR Supplement and other NASA
guidance assist COs in performing their oversight duties. The NASA FAR Supplement
Part 1844, “Subcontracting Policies and Procedures,” requires NASA COs to retain
consent to subcontract authority unless delegation is approved in writing by the
Procurement Officer. NASA COs for the CSC contract at the Marshall Space Flight



                                                13
Appendix D

Center (Marshall) and the Orbital contract at Ames Research Center (Ames) retained the
authority to grant consent to subcontract. A NASA Self-Assessment Guide,3 addresses
subcontract consent files and states the contract file should contain information showing
the consents requested, an analysis, and actual consents granted. The Guide also states
that contractors should support consent requests with adequate information and that
evidence of adequate CO analysis should exist.

NASA FAR Supplement 1806.303-170, “Sole-source purchases by contractors,” states
that:

                 The requirements of FAR Part 6 and NFS Part 1806 apply if NASA
                 directs a prime contractor (by specifications, drawings, parts lists, or
                 otherwise) to purchase items on a sole-source basis. Accordingly,
                 procurement officers shall take necessary actions to ensure that such
                 sole-source acquisitions are properly justified.

Furthermore, NASA FAR Supplement 1806.304-70, “Approval of NASA justifications,”
states that:

                 Concurrences and approvals for justifications of contract actions
                 conducted in accordance with FAR Subparts 6.2 and 6.3 shall be
                 obtained as follows:

                 (a) For proposed contracts over $500,000 but not exceeding
                 $10,000,000 –

                   (1) Concurring official: Procurement Officer
                   (2) Approving official: Center or Headquarters Competition
                 Advocate.

Contractor’s Acquisition Policies and Procedures. NASA relies on contractors to
incorporate FAR and NASA FAR Supplement requirements identified in their contracts
into company policies and procedures and to follow those company policies and
procedures. However, FAR requirements do not necessarily bind the prime contractor to
use the same criteria as the CO in competing subcontracts and documenting
noncompetitive procurements. Therefore, company policies vary, and it is the
responsibility of the Defense Contract Management Agency (DCMA) contractor
purchasing system review (CPSR) teams to determine the adequacy of documentation to
support noncompetitive procurements. In the absence of a CPSR, NASA COs are
responsible for granting contractors consent to subcontract and for being aware of
company policies related to competition and documenting noncompetitive procurements.




3
  The Self-Assessment Guide is intended for use by Center procurement staff in support of annual Center
internal procurement reviews and is accessible through NASA’s Procurement Library Web site.

                                                   14
                                                                           Appendix D

COs are required by FAR Part 44 to analyze contractor requests to award subcontracts
before granting consent. Therefore, NASA COs performing this analysis rely on
contractors to develop competition policies that reasonably reflect FAR requirements and
to follow those policies. Company policies and procedures for obtaining competition were
similar for CSC and Orbital, with CSC using the phrase “full and open competition” while
Orbital used the phrase “whenever possible.” Both contractors specifically required their
 buyers to obtain at least two responsive and responsible bids.




                                          15
                          Appendix E. Noncompetitive Subcontract Awards at 13 NASA Contractors

                                                 Audit Reports Covering Noncompetitive Procurements in Past 3 Years

                                                                                                       Number of
                                                                                Number of Contract Subcontracts Noncompetitive Value of Inadequate Value of
                                 Audit Report                                   Contractors Number (s)  Reviewed Procurements     (a)   Justifications   (b)
                                                                                                                      (a)       ($000)        (b)      ($000)

"Improving NASA Oversight of Prime Contractors' Noncompetitive                      3     5 contracts     70           25       $15,910.7    10      $ 5,519.6
Subcontracting," Assignment Number A-02-011-00 (current report)

"NASA Contracts for Professional, Administrative, and Management                    5     5 contracts     22           13         1,257.6    13        1,257.6
Support Services," Report Number IG-03-003, October 16, 2002

"Lockheed Martin Space Operations' Use of Professional & Consultant                 1     NAS9-19100       7           16        20,842.8    16        1,020.0
Services," Report Number IG-02-013, March 26, 2002                                        NAS9-98100

"Thiokol's Use of Professional and Consultant Services"                             1     NAS8-30490      47           13         1,437.6     7        1,330.8
Report Number IG-01-019, March 30, 2001                                                   NAS8-38100
                                                                                          NAS8-97238

"United Space Alliance's Use of Professional and Consultant Services"               1     NAS9-20000       9           9          1,908.2     7        1,809.7
Report Number IG-01-012, March 16, 2001

"Raytheon Subcontract Management"                                                   1     NAS9-18181      32           17         6,900.0     4          399.3
Report Number IG-00-002, December 21, 1999

"Allied Signal Subcontract Management"                                              1     NAS9-95682      31           18         1,600.0     3          257.7
Report Number IG-99-042, September 16, 1999

                                                                        Total      13          18         218         111       $49,856.9    60      $11,594.7

              Percentage of Inadequate Justifications of Sole-source Procurements (60/111)                                                  54.1%




                                                                                    16
                    Appendix F. Summary of Prior Audits

NASA Office of Inspector General Reviews. The NASA Office of Inspector General
has issued six reports dealing with noncompetitive procurements. For copies of those
reports, visit http://www.hq.nasa.gov/office/oig/hq/issuedaudits.html. Details follow.

“NASA Contracts for Professional, Administrative, and Management Support
Services,” Report Number IG-03-003, October 16, 2002. NASA can improve its
award and management of support services contracts. For 3 of the 5 support services
contracts reviewed, contractors did not obtain adequate competition for 13
(59 percent) of 22 subcontracts awarded and did not adequately justify the lack of
competition for the 13 awards. As a result, NASA has reduced assurance that the
selected subcontractors offered fair and reasonable prices for the 13 subcontracts valued
at about $1.3 million. Also, NASA did not maximize opportunities to facilitate the use of
fixed-price contracting for routine administrative services with reasonably definite
requirements. As a result, NASA assumed more risk than necessary because the use of
cost-type contracts rather than fixed-price contracts can minimize the contractor’s
incentive to control costs and perform effectively. In addition, cost-type contracts can be
more costly and burdensome for NASA to administer due to more stringent contract
reporting and review requirements. We recommended that NASA contracting officers
(COs) require contractors to develop and to improve upon company policies for
documenting the rationale for noncompetitive subcontract awards and to follow policies
for competing subcontracts and documenting noncompetitive procurements. We also
recommended that COs thoroughly document their analysis and approval of contractor
requests for consent to subcontract and that contract files include contractor consent
requests. We further recommended that the NASA COs collect sufficient historical
workload data for routine administrative services to allow for expanded use of fixed-price
contracting in future awards when data and circumstances indicate fixed-price
contracting is appropriate.

“Lockheed Martin Space Operations’ Use of Professional and Consultant Services,”
Report Number IG-02-013, March 26, 2002. NASA can improve its controls over the
contractor’s use of professional and consultant services. Further, the contractor’s
management controls did not ensure compliance with Federal Acquisition Regulation
(FAR) requirements. For two of seven professional and consultant service subcontracts
reviewed, Lockheed Martin Space Operations officials had not properly justified
noncompetitive procurements. We recommended that the COs for the two contracts in
question coordinate with the administrative contracting officer (ACO) to require the
contractor to follow its established procedures by preparing written justifications for
future noncompetitive procurements.

“Thiokol’s Use of Professional and Consultant Services,” Report Number
IG-01-019, March 30, 2001. NASA’s controls over Thiokol Propulsion’s (Thiokol’s)
use of professional and consultant services can be improved. For 7 of the 13 professional




                                            17
Appendix F

and consultant services subcontracts we reviewed, Thiokol buyers did not follow
company policy requiring adequate justifications for noncompetitive procurements when
dealing with former Thiokol employees or prior subcontractors. Also, Defense Contract
Management Agency (DCMA) purchasing system and surveillance reviews and Defense
Contract Audit Agency (DCAA) audits of incurred costs did not include professional and
consultant service subcontracts due to the relatively low-dollar value of these
subcontracts and no consideration of the inherent risk. Further, the DCMA consent to
subcontract review excludes professional and consultant services subcontracts because
the subcontracts do not meet the threshold dollar value for the review. We recommended
that the NASA CO: (1) direct Thiokol to ensure contractor personnel submit timely and
acceptable justifications for noncompetitive procurements, (2) request the DCAA to
include professional and consultant service costs in samples selected for future incurred
cost audits, (3) request the DCMA ACO to include professional and consultant services
subcontracts as part of DCMA’s surveillance reviews, and (4) request the DCMA ACO
to include in oversight reviews the allocation of professional and consultant services
costs that are charged as indirect costs.

“United Space Alliance’s Use of Professional and Consultant Services,” Report
Number IG-01-012, March 16, 2001. For seven of nine professional and consultant
services subcontracts we reviewed, United Space Alliance (USA) officials did not
prepare acceptable justifications for noncompetitive procurements. USA procedures did
not sufficiently implement FAR requirements for USA personnel to prepare acceptable
acquisition justifications for noncompetitive procurements. As a result, NASA had
reduced assurance that the contractor obtained the best source and price for the
noncompetitive procurements. We recommended the NASA ACO implement procedures
that comply with the FAR requirements for the acceptable preparation of acquisition
justifications for noncompetitive procurements. We also recommended that the DCMA
ACO establish a process that includes USA’s monthly report of professional and
consultant services subcontracts in the semiannual surveillance reviews.

“Allied Signal Subcontract Management,” Report Number IG-99-042,
September 16, 1999, and “Raytheon Subcontract Management,” Report Number
IG-00-002, December 21, 1999. Purchasing department buyers for the two contractors
did not maintain documentation to support justifications for noncompetitive
procurements. The contractors’ purchasing policies did not require contractor personnel
to keep supporting documentation. Additionally, Government oversight reviews of the
contractors’ procurement systems did not include examinations of supporting
documentation for noncompetitive procurements. As a result, NASA had reduced
assurance that contractors maximized competition. In response to our recommendations,
NASA management instructed the contractors to maintain adequate documentation in
support of noncompetitive procurements. NASA management also took actions to
include reviews of supporting documentation in future reviews of the contractors’
purchasing systems.
                    Appendix G. Management’s Response

                                           18
19
Appendix G




             20
     Appendix G




21
                      Appendix H. Report Distribution

National Aeronautics and Space Administration (NASA) Headquarters

A/Administrator
AA/Chief of Staff
ADI/Associate Deputy Administrator for Institutions and Asset Management
ADT/Associate Deputy Administrator for Technical Programs
B/Deputy Chief Financial Officer for Financial Management
B/Deputy Chief Financial Officer for Resources (Comptroller)
BF/Director, Financial Management Division
G/General Counsel
H/Assistant Administrator for Procurement
HK/Director, Contract Management Division
HS/Director, Program Operations Division
J/Assistant Administrator for Management Systems
JM/Director, Management Assessment Division
L/Assistant Administrator for Legislative Affairs
M/Associate Administrator for Space Flight
R/Acting Associate Administrator for Aerospace Technology
S/Associate Administrator for Space Science
Y/Associate Administrator for Earth Science

NASA Centers

ARC/D/Director, Ames Research Center
GSFC/100/Director, Goddard Space Flight Center
KSC/CC/Chief Counsel, Kennedy Space Center
MSFC/DA01/Director, George C. Marshall Space Flight Center

Non-NASA Federal Organizations and Individuals

Assistant to the President for Science and Technology Policy
Deputy Associate Director, Energy and Science Division, Office of Management and
 Budget
Branch Chief, Science and Space Programs Branch, Energy and Science Division, Office
 of Management and Budget
Managing Director, Acquisition and Sourcing Management Team, General Accounting
 Office
Senior Professional Assistant, Senate Subcommittee on Science, Technology, and Space




                                         22
                                                                       Appendix H

Chairman and Ranking Minority Member – Congressional Committees and
Subcommittees

Senate Committee on Appropriations
Senate Subcommittee on VA, HUD, and Independent Agencies
Senate Committee on Commerce, Science, and Transportation
Senate Subcommittee on Science, Technology, and Space
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on VA, HUD, and Independent Agencies
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
 and the Census
House Committee on Science
House Subcommittee on Space and Aeronautics

Congressional Member

Honorable Pete Sessions, U.S. House of Representatives




                                         23
               NASA Assistant Inspector General for Auditing
                              Reader Survey

The NASA Office of Inspector General has a continuing interest in improving the
usefulness of our reports. We wish to make our reports responsive to our customers’
interests, consistent with our statutory responsibility. Could you help us by completing
our reader survey? For your convenience, the questionnaire can be completed
electronically through our homepage at http://www.hq.nasa.gov/office/oig/hq/audits.html
or can be mailed to the Assistant Inspector General for Auditing; NASA Headquarters,
Code W, Washington, DC 20546-0001.

Report Title: Improving NASA Oversight of Prime Contractors’ Noncompetitive
              Subcontracting, IG-03-024, dated August XX, 2003


          Circle the appropriate rating for the following statements.
                                            Strongly                                Strongly
                                            Agree      Agree   Neutral   Disagree   Disagree   N/A
1. The report was clear, readable, and         5         4       3          2           1      N/A

   logically organized.
2. The report was concise and to the           5         4       3          2          1       N/A

   point.
3. We effectively communicated the             5         4       3          2          1       N/A

   audit objectives, scope, and
   methodology.
4. The report contained sufficient             5         4       3          2          1       N/A

   information to support the finding(s)
   in a balanced and objective manner.

Overall, how would you rate the report?

    Excellent           Fair
    Very Good           Poor
    Good
If you have any additional comments or wish to elaborate on any of the above
responses, please write them here. Use additional paper if necessary.
How did you use the report?




How could we improve our report?




How would you identify yourself? (Select one)

       Congressional Staff                              Media

       NASA Employee                            Public Interest
       Private Citizen                          Other:
       Government:            Federal:             State:         Local:


May we contact you about your comments?

Yes: ______                                No: ______
Name: ___________________________
Telephone: _______________________


Thank you for your cooperation in completing this survey.
Additional Copies

To obtain additional copies of this report, contact the Assistant Inspector General for
Auditing at (202) 358-1232.


Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Assistant Inspector General
for Auditing. Ideas and requests can also be mailed to:

     Assistant Inspector General for Auditing
     Code W
     NASA Headquarters
     Washington, DC 20546-0001


NASA Hotline

To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at (800)
424-9183, (800) 535-8134 (TDD), or at www.hq.nasa.gov/office/oig/hq/hotline.html#form;
or write to the NASA Inspector General, P.O. Box 23089, L’Enfant Plaza Station,
Washington, DC 20026. The identity of each writer and caller can be kept confidential,
upon request, to the extent permitted by law.


Major Contributors to the Report

Joe Kroener, Director, Office of Audits (OA) Procurement

Lorne Dear, Associate Director, OA Procurement

Patrick Iler, Project Manager

Kenneth Wood, Lead Auditor

Mary Anderson, Auditor

Diane Frazier, Procurement Analyst
